                     CLOSEOUT FOR M91100040




                                   scientific


Subjects #1 and #2 on thelr research and should also be considered
a stbject of the allegation (Subject # 3 ) .




-   -
of either. Subject #2 was o n a panel that reviewed both proposals,
but recused herself because she and the complainant had recently
been at the same university. According to the program officer, it
is very unlikely that Subject #2 would have seen the proposals.
     The complainant's research resulted in certain important
findings that were then presented at a 1990 meeting. In early
1991, Subject # 2 informed the complainant that Subject #1 had
expressed an interest in doing related work in Sub'ect #2's
laboratory. The complainant subsequently learned               1991)
that Subject #I, while a visitor in Subject #2's laboratory, had
tlessentiallyrepeatedn her work and, along with Subjects # 2 and #3,
had submitted a manuscript for publication "making a major point of
general significance                            (and a main point in
my analyses)...." The complainant believes that the subjects had
"hot been completely honesEn about the nature of their interest in
her work, had tried to take her f indins "out from under herw before
she had published it herself, and were trying to share credit for
scientific advances that rightly-   -  belonged
                                             -    to her and her
collaborators.
     This case raised issues of intellectual theft from a proposal
sent out for confidential peer review and of breaches of scientific
norms regarding deference to intellectual priority.
     The complainant did not allege intellectual theft, and the
evidence would not, in any event, sustain such an allegation. She
acknowledges that the subjects did independent work whose
methodology and results were somewhat different from her own.
While it is possible that Subject #1 got the basic idea for this
work from the complainant' s declined NSF proposal, it would not be
possible to prove that this was the case.        The complainant's
                           page 1 of 2
  meeting presentation made her ideas public before the subjects
  began their research and could have led Subject #1 to initiate
  similar work.    Sub'ect #1 has a more extensive background in
  dealing with this h t h a n does the complainant, and he could
  plausibly claim to have developed the research ideas as a logical
  extension of his previous work. The subjects' paper reporting
  their research acknowledges the work of the complainant and her
  collaborators, and the work of the two is sufficiently different
  that the same journal published their papers in close succession.
  Only at a very general level is the work of the two "the same."
       The complainant's allegations about attempts to undermine'her
  priority claims involve activities that, while perhaps more than
  violations of professional courtesy, do not constitute serious
  deviations from accepted practice.        The subjects did not
  misrepresent either their own or the complainants' work, nor did
  they fail to acknowledge any documentable intellectual debts.
       This case is closed and no further action will be taken.




  Staff Scientist, Oversight

  Concurrence:



  Donald E. Buzzelli
  Deputy Assistant Inspector General,
  Oversight



" Assistant
  22G-k-               'L'71c13
              Inspector General for Oversight



  L. Nancy Birnbaum
  Assistant Counsel to the Inspector General

  cc : Signatories
       Inspector General

                               page 2 of 2
